                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: I09020008                                                    11           Page 1 of 1



          This investigation of an NSF award was opened pursuant to a proactive review focused on NSF
          awards which appeared to have expenses incurred after the award expiration date. The
          investigation, which included a review of financial documents, initially identified questionable
          costs. The university2 subsequently provided supporting documentation and explanations for all
          the questioned costs and it was determined that there were no costs incurred after the award
          expiration date.

          There was no evidence found that funds were misappropriated. Therefore, no further
          investigative efforts are required in this case.

          Accordingly, this matter is closed.
